                                              EMPLOYMENT AND
                                              TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              AUDIT OF THE SAN DIEGO WORKFORCE
                                              PARTNERSHIP, INC.




                                                                  Date Issued: February 14, 2007
                                                                  Report Number: 09-07-001-03-390
U.S. Department of Labor                                 FEBRUARY 2007
Office of Inspector General
Office of Audit                                          AUDIT OF THE SAN DIEGO
                                                         WORKFORCE PARTNERSHIP,
BRIEFLY…                                                 INC.
Highlights of Report Number: 09-07-001-03-390
to the Assistant Secretary for Employment and
Training.                                                WHAT OIG FOUND
                                                         We found that SDWP grant costs were not accurate
                                                         allowable and allocable. Specifically, we questioned
WHY READ THE REPORT                                      $1.3 million in building costs and $1.3 million related
The report discusses the audit results for the           to an equipment purchase-sale-leaseback
performance audit of the San Diego Workforce             transaction. We also identified $1 million in program
Partnership, Inc. (SDWP).                                income that SDWP considered discretionary and we
                                                         requested verification of $11.6 million in direct labor
                                                         and associated costs. Further, SDWP did not
WHY OIG DID THE AUDIT                                    comply with applicable laws and regulations
                                                         regarding procurement and equipment. Lastly,
The Office of Inspector General (OIG) conducted a
                                                         nothing came to our attention to indicate SDWP’s
performance audit of SDWP, an Employment and
                                                         controls over program data were not adequate.
Training Administration (ETA) grantee in San Diego,
California. SDWP was and continues to be the
administrative agency for the Workforce Investment       WHAT AUDITEE STATED
Board (WIB) of the City and County of San Diego,         SDWP generally did not agree that the $1.3 million
California. This audit was initiated both as a part of   of building costs were unallowable or that corrective
the OIG’s audit workplan and at the specific request     actions were necessary on this issue. SDWP
of the ETA Regional Administrator in San Francisco,      agreed that a portion of the equipment purchase-
California.                                              sale-leaseback transaction may be unallowable.
                                                         SDWP did not agree that verifications were needed
Our audit objectives were to answer the following        of direct labor and associated costs. SDWP did not
specific questions:                                      agree the $1 million was program income but stated
                                                         it had used the income for allowable program
1. Were SDWP grant costs accurate, allowable, and        purposes. SDWP did agree to improve its
allocable?                                               procurement process and equipment records and to
                                                         conduct equipment inventories every 2 years, as
2. Did SDWP comply with applicable laws and              required.
regulations?
                                                         WHAT OIG RECOMMENDED
3. Was SDWP’s reporting of program data
adequate?                                                We recommended that the Assistant Secretary for
                                                         Employment and Training:

                                                             Recover $1.3 million of grant costs that were
READ THE FULL REPORT
                                                             unallowable and determine the allowable cost
To view the report, including the scope,                     amount related to the $1.3 million equipment
methodology and agency response, go to:                      purchase-sale-leaseback transaction.
http://www.oig.dol.gov/public/reports/
oa/2007/09-07-001-03-390.pdf                                 Ensure that SDWP use $1 million of program
                                                             income only for allowable program purposes.

                                                             Analyze $11.6 million in direct labor costs and
                                                             associated charges on a grant-by-grant basis.

                                                             Direct SDWP to improve its procurement
                                                             process and equipment records, and conduct
                                                             equipment inventories.
                                                              Audit Of San Diego Workforce Partnership, Inc.




Table of Contents
                                                                                                               PAGE
EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    Finding 1. Some SDWP grant costs were not accurate, allowable,
                or allocable. ........................................................................................ 8

        Finding 1a. Unused building space, early lease termination,
                    and excessive rent ........................................................................ 9

        Finding 1b. Equipment Purchase-Sale-Leaseback transaction .................. 15

        Finding 1c. Unrecognized program income associated with
                    charter, cash match, and conference fees................................ 17

        Finding 1d. Noncompliance with Salary Cost Distribution
                    System Requirements ................................................................ 24

        Finding 1e. Noncompliance with Indirect Cost Proposal
                    Requirements .............................................................................. 27


    Finding 2. SDWP did not comply with all applicable laws and
                regulations. ....................................................................................... 29

        Finding 2a. The SDWP created a barrier to competition in the
                    procurement process for soliciting and awarding
                    One-Stop contracts by requiring improper charter
                    and cash match fees................................................................... 30

        Finding 2b. SDWP did not adequately encourage the use of
                    small businesses, minority-owned firms, or
                    women’s business enterprises. ................................................. 33

        Finding 2c. SDWP did not perform price or cost analyses for
                    contracts awarded. ..................................................................... 35

        Finding 2d. Equipment records did not contain all information
                    required by OMB Circular A-110. Additionally,
                    SDWP did not document their physical inventory
                    of equipment or reconcile results to equipment
                    records......................................................................................... 37

U.S. Department of Labor—Office of Inspector General                                                                  1
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


EXHIBITS...................................................................................................................... 41

    EXHIBIT 1 SDWP Grant Expenditures (July 1, 2002 through
              June 30, 2004)...................................................................................... 43

    EXHIBIT 2 FY 2005 NET Building Expenses Allocable to Indirect
              Cost Pool ............................................................................................. 45

APPENDICES ............................................................................................................... 47

    APPENDIX A Background....................................................................................... 49

    APPENDIX B Objectives, Scope, Methodology, and Criteria............................... 51

    APPENDIX C Acronyms and Abbreviations .......................................................... 55

    APPENDIX D Auditee Response to Draft Report .................................................. 57




2                                                        U.S. Department of Labor—Office of Inspector General
                                                                             Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the San Diego
Workforce Partnership, Inc. (SDWP), an Employment and Training Administration (ETA)
grantee in San Diego, California. SDWP was and continues to be the administrative
agency for the Workforce Investment Board (WIB) of the City and County of San Diego,
California. This audit was initiated both as a part of the OIG’s audit workplan and at the
specific request of the ETA Regional Administrator in San Francisco, California.

Our audit objectives were to answer the following specific questions:

1. Were SDWP grant costs accurate, allowable, and allocable?

2. Did SDWP comply with applicable laws and regulations?

3. Was SDWP’s reporting of program data adequate?

Our audit objectives incorporated the ETA Regional Administrator’s request that we
answer a number of questions and concerns regarding the costs of moving SDWP’s
headquarters; delinquent indirect cost proposals; unreported program income; irregular
requirements for awarding contracts; and the independence of SDWP’s auditing firm.
Our audit included an examination of approximately $90.3 million in expenditures
(Exhibit 1).

Results


We concluded that SDWP grant costs were not accurate, allowable, and allocable. In
addition, SDWP did not comply with applicable laws and regulations regarding
procurement and equipment. Lastly, nothing came to our attention that indicated SDWP
controls over program data were not adequate.

We are specifically questioning $1.3 million for unused building space, early lease
termination, and excessive rent; and $1.3 million in excessive costs related to an
equipment purchase-sale-leaseback transaction. Further, we identified $1 million in
unreported program income associated with charter, cash match, and conference fees.
We also found that SDWP did not distribute $11.6 million in salary and related costs in
accordance with OMB Circular A-122. In addition, SDWP did not submit its final indirect
cost proposals as required by OMB Circular A-122.

We found that SDWP did comply with applicable laws and regulations as related to the
independence of its auditing firm. However, we found that SDWP did not comply with
applicable laws and regulations pertaining to procurement and equipment. Specifically,
we found that SDWP: created a barrier to competition in its procurement process; did
not adequately encourage the use of small businesses, minority-owned firms, and

U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


women’s business enterprises; did not perform price or cost analyses for awarded
contracts; did not include required information in its equipment records; and did not
document physical equipment inventory or reconcile results to equipment records.

Auditee Response


SDWP generally did not agree that its grant costs were not accurate, allowable or
allocable. Of the total $2.6 million we questioned for Findings 1a and 1b, SDWP stated
that only $291,119 may not be allowable under governing criteria. Specifically, SDWP
stated that only $134,119 in vacant retail space of the $1.3 million for unused building
space, early lease termination, and excessive rent represented potentially unallowable
costs. In addition, SDWP stated the unused building space, early lease termination,
and excessive rent resulted from circumstances beyond SDWP’s control (Finding 1a).
SDWP also stated that $157,000 of the $1.3 million OIG questioned for equipment
purchase-sale-leaseback represented interest charges, which may not be allowable.
However, SDWP stated the remaining portion is allowable (Finding 1b).

SDWP also did not agree that the $1 million associated with charter, cash match, and
conference fees represented unreported program income. However, SDWP did state
that SDWP used the funds for allowable purposes for transactions occurring after the
audit cutoff date (Finding 1c). Further, SDWP stated that its timekeeping system had
been updated and that its salary costs were allocated reasonably in accordance with
OMB Circular A-122 (Finding 1d). As to its indirect cost proposals, SDWP stated it was
waiting for DOL approval on earlier rates, but has now submitted all required indirect
cost proposals (Finding 1e).

SDWP did not agree that it had created a barrier to competition in its procurement
process and stated that the use of certain fees had been encouraged by DOL and used
in other workforce areas. SDWP also did not agree with OIG’s conclusions that SDWP
did not adequately encourage the use of small businesses, minority-owned firms, and
women’s business enterprises and that SDWP did not perform price or cost analyses for
awarded contracts. However, SDWP did agree to revise its procedures in these areas
to provide better documentation (Findings 2a, 2b, and 2c). Finally, while SDWP did not
believe it had violated equipment regulations, SDWP concurred with OIG conclusions
regarding equipment records and inventory processes and has implemented new
procedures (Finding 2d).

The summary portion of SDWP’s response is included in our report as Appendix D.
SDWP’s entire response included a summary response and 12 exhibits comprising 242
pages. Due to the volume of pages in the exhibits, we chose not to include them in our
hardcopy report. However, SDWP’s response in its entirety is included in our electronic
copy of this report, which is available on our website at www.oig.dol.gov.




4                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


OIG Conclusion


OIG reviewed SDWP’s responses to the draft report. The additional information
provided by SDWP did not materially affect the report, although we did make small
dollar adjustments to our findings. Therefore, the reported findings and
recommendations remain substantially unchanged. However, based on SDWP’s
responses, and subject to Grant Officer concurrence, we consider recommendations 11
through 14 and recommendations 17 through 18 resolved and open, and those
recommendations will be closed upon OIG’s review and verification of ETA actions. We
also consider recommendations 15 and 16 resolved and closed also subject to Grant
Officer concurrence. The remaining recommendations 1 through 10 remain unresolved
and those recommendations will be resolved during ETA’s formal audit resolution
process.

Recommendations
The report contains 18 recommendations to the Assistant Secretary for Employment
and Training. In summary, we recommend that the Assistant Secretary:

   •   Recover $1.3 million in costs associated with unused building space, early lease
       termination, excessive rent; recover $216,850 for increased equipment lease
       costs that were unallowable and determine the appropriate depreciation and cost
       allocation of $1.1 million in equipment purchases to DOL grants; and inform
       SDWP that $1 million in charter fees, cash match fees, and conference
       registration revenue were program income and require SDWP to use those funds
       only for allowable program purposes. (Findings 1a through 1c)

   •   Require SDWP to implement corrective procedures to prevent these unallowable
       costs from reoccurring, perform a space utilization study to determine proper
       space requirements, and make determinations regarding allowable equipment
       and labor costs. (Finding 1b)

   •   Analyze $11.6 million in direct labor and associated costs, on a grant-by-grant
       basis, for FY 2003 through FY 2005 and determine if those costs were
       reasonable for the products and services received. Based upon the results of the
       labor cost analysis, recover any amounts determined to be unreasonable.
       (Finding 1d)

   •   Require SDWP to submit delinquent indirect cost proposals for the Department’s
       review and approval. (Finding 1e)

   •   Request the Assistant Secretary for Administration and Management to complete
       the review and approval of SDWP’s final indirect cost rates for FY 2000 and FY
       2001, and, upon receipt, process for review and approval the final indirect cost
       proposals that SDWP will submit for FY 2002 through FY 2005. (Finding 1e)


U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


    •   Direct SDWP to stop requiring charter fees and cash match fees in its
        procurement process. (Finding 2a)

    •   Require SDWP to update its procurement procedures and comply with OMB
        Circular A-110 requirements for utilizing small businesses, minority-owned firms
        and women’s business enterprises, and perform cost and price analyses.
        (Findings 2b and 2c)

    •   Require SDWP to maintain equipment records in accordance with OMB Circular
        A-110, perform equipment inventories every 2 years, and reconcile their
        inventory results with equipment records. (Finding 2d)




6                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                 Audit Of San Diego Workforce Partnership, Inc.


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report



Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U. S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210


We conducted a performance audit of the San Diego Workforce Partnership, Inc.
(SDWP), an ETA grantee in San Diego, California. SDWP was and continues to be the
administrative agency for the Workforce Investment Board (WIB) of the City and County
of San Diego, California. This audit was initiated both as a part of the OIG’s annual
audit workplan and at the specific request of the ETA Regional Administrator in San
Francisco, California.

SDWP is on a fiscal year ending June 30th each year. Our audit covered the period
July 1, 2002 through June 30, 2004 (SDWP Fiscal Years (FY) 2003 and 2004) and
included a review of $90.3 million in expenditures (Exhibit 1). We also extended our
audit coverage to other periods where necessary to determine if DOL funds were
properly spent.

We focused on the following three audit objectives:

1. Were SDWP grant costs accurate, allowable, and allocable?

2. Did SDWP comply with applicable laws and regulations?

3. Was SDWP’s reporting of program data adequate?

Our audit objectives incorporated the ETA Regional Administrator’s request to answer
the following questions and concerns:

   •   What, if any, unallowable costs resulted from SDWP’s lease, move, and space
       allocation at 3910 University Avenue, San Diego, CA? (Objective 1)




U.S. Department of Labor—Office of Inspector General                                         7
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


    •   Was the long-standing need to replace the out of date provisional indirect cost
        rates used by SDWP resolved? (Objective 1)

    •   Did SDWP use and treat various sources of revenue including charter fees,
        donations, and other refunds according to applicable regulations? (Objective 1)

    •   What was the impact of the requirement for One-Stop operators to pay fees as a
        condition of contract award? (Objective 2)

    •   Was the A-133 audit firm independent? (Objective 2)

We conducted the audit in accordance with the Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Our audit
objectives, scope, methodology, and criteria are detailed in Appendix B.

Objective 1 – Were SDWP grant costs accurate, allowable, and allocable?

Finding 1. Some SDWP grant costs were not accurate, allowable, or allocable.

SDWP did not consistently follow Federal cost principles and financial management
regulations when managing DOL grant funds. Specifically, SDWP did not comply with
regulatory requirements for DOL grants in the areas of leased building space, leased
equipment, program income, salary cost distribution, and final indirect cost rates.

Our audit results identified questioned costs associated with:

    ¾ Unused building space, early lease termination, and excessive rent

    ¾ Excessive costs incurred for equipment purchase-sale-leaseback

    ¾ Unrecognized program income associated with charter, cash match, and
      conference fees

In addition, SDWP did not follow Federal cost principles concerning:

    ¾ Salary cost distribution among various DOL programs

    ¾ Timely submission of final indirect cost proposals

We identified questioned costs and funds that could be put to better use related to DOL
grants. We are specifically questioning $1.3 million for unused building space, early
lease termination, and excessive rent (Finding 1a) and $1.3 million for excessive costs
incurred for equipment purchase-sale-leaseback (Finding 1b). We also identified
$1 million in unrecognized program income associated with charter, cash match, and
conference fees as funds that could be put to better use (Finding 1c). In addition,
SDWP did not distribute its salary costs in accordance with OMB Circular A-122

8                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


(Finding 1d) and SDWP did not submit its final indirect cost proposals as required by
OMB Circular A-122. (Finding 1e)

Finding 1a. Unused building space, early lease termination, and excessive rent

SDWP billed DOL approximately $1.3 million for costs related to unused building space,
early lease termination, and excessive rent. This occurred because SDWP
misinterpreted applicable rules and regulations regarding building space. As a result,
SDWP misspent program funds of approximately $1.3 million comprising $763,543 in
unused building space, $242,023 in early lease termination costs, and $269,586 in
excessive rents.

Background

During 2001, SDWP, as the administrative agency for the WIB, had program operations
in six separate major facilities including a One-Stop Center in the Northern part of the
County (North County), a One-Stop Center in mid-town San Diego (Metro Center), and
a separate building for SDWP Headquarters.

In 2001, SDWP began looking for new space for its Metro Center operations. According
to SDWP officials, this was necessitated by the California Economic Development
Department’s (EDD) requirement to be in buildings which met certain requirements for
earthquake safety. EDD was a major partner in the Metro Center and, according to
SDWP officials, was required to be part of the One-Stop operations. Therefore, the
entire Metro Center had to relocate.

At the time SDWP began searching for new Metro Center office space, the Metro
Center, including EDD, occupied 40,000 square feet of
space. In 2002, SDWP agreed to a 30-year lease on a
building that was to be built specifically for SDWP that
encompassed approximately 82,700 square feet, which
was more than twice the amount of space previously
occupied by the Metro Center (picture at right). In fact,
with the Metro Center only previously occupying 40,000
square feet of space, the building was built and leased
with additional purposes in mind including a portion
allocated to retail space. SDWP took possession of the
building in March 2004 with lease payments
approximating $2 million annually. Between 2002 and March 2004, before the building
was ready for occupancy, major setbacks occurred. EDD had budget and staff
cutbacks and decided not to move into the new building. The community college, which
had agreed to lease space, also had funding problems and decided not to execute a
lease on the new building. Head Start, which had custom constructed space in the new
building, also backed out. Consequently, SDWP had major occupancy problems since
it was the primary leaseholder.



U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


To solve these problems, SDWP took two major actions. First, SDWP embarked on a
campaign to bring in other commercial tenants. While
SDWP did obtain leases with Citibank, the California
Conservation Corps and a local charter school, major parts
of the building were, and still remain empty. The picture at
right was taken in February 2006, and shows space that
DOL funds paid for but has remained empty since March
2004. Secondly, SDWP decided to move its own
Headquarters operation, which was not previously co-
located with the Metro Center, to the new building. This
move was not initially planned when the lease was signed.

Building expenses, with some limitations, are allowable expenses if they meet the
general criteria under OMB Circular A-122 as reasonable and allocable. According to
Circular A-122, a cost is reasonable if, in its nature or amount, it does not exceed that
which would be incurred by a prudent person under the circumstances prevailing at the
time the decision was made to incur the costs. A cost is allocable to a particular cost
objective, such as a grant, contract, project, service, or other activity, in accordance with
the relative benefits received.

SDWP incurred building expenses approximating $1.3 million that were neither
reasonable nor allocable under these criteria. As detailed below, $1.3 million had been
spent which was not allocable to DOL programs:

                 Unreasonable and/or Unallocable Building Expenses

              Building Expense                   Time Period            Amount
            Unused Building Space                  FY 2004               $ 261,892
            Unused Building Space                  FY 2005                  501,651
            Early Lease Termination                FY 2004                  242,023
                Excessive Rent                     FY 2005                  269,586
                     Total                                               $1,275,152

Unused Building Space

SDWP took possession of, and began incurring expenses on, the new building in March
2004. SDWP incurred expenses, including lease costs, facilities maintenance, and
utilities for the entire building for over 3 months while the One-Stop Center was the only
occupant, utilizing 31 percent of the space. The costs for the empty space, totaling
$261,892, were charged directly to three DOL grants. For FY 2004, we are questioning
the $261,892 in building expenses. We consider the cost of the empty building space to
be unnecessary. DOL grants received no benefit by paying building expenses on the
empty building space.

In addition, for FY 2005, building expenses totaling $501,651 were paid for space not
used by SDWP. In October 2004, SDWP moved its Headquarters into the new building

10                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


and incurred net building expenses of $1,184,670 on the new building, which were
included in the FY 2005 indirect cost pool. However, the portion allocable to SDWP
based on square footage translated into $683,019 being allocable to the indirect cost
pool. Therefore, for FY 2005, we are questioning the difference of $501,651. (See
Chart on page 10 and Exhibit 2.)

The total questioned costs for space unused by any DOL program is $763,543
($261,892 + $501,651). Further, developing and implementing procedures to properly
allocate building costs to DOL grants would prevent recurrence of unallowable costs.

Early Lease Termination

In order to fill the empty space at the new building, SDWP moved its Headquarters from
its downtown location. This was not planned when the initial lease was signed, but was
done because other commercial tenants could not be found to occupy the new space.
However, SDWP had a lease agreement with its downtown landlord which ran through
2008. In order to move, SDWP broke the lease and paid $242,023 for the early lease
termination, which was included in SDWP’s indirect cost pool. Terminating the lease
and moving to mitigate SDWP’s rental losses on the new building was an unnecessary
expense for DOL programs. Therefore, we are questioning the $242,023.

Excessive Rent

After SDWP moved its Headquarters to its new building, it occupied more space than it
had in the previous location and at a greater lease cost per square foot. We conducted
a rent analysis by comparing monthly rent, total area occupied, and staff levels at
various specific times for SDWP’s previous and current location. The total additional
rent incurred as a result of moving into the new building was $269,586 as shown below:

                                       Rent Analysis

        Previous Building                          Current Building               Changes
           1551 4th Ave                         3910 University Ave
   Monthly Rent        $37,638          Monthly Rent:, (41% of     $67,592          +79%
                                         total building rent)

    Total Area             24,600        Total Area Occupied         34,091         +39%
   Occupied (SF)                         (41% of 82,236 SF )

  Total Employees            71        Total Employees (As of          67            -6%
 (As of May, 2004)                         October, 2004)

                                       Total Employees (As of    56                 -21%
                                          February, 2006)     Employees




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


The total additional rent was computed as: $67,592 - $37,638 = $29,954 higher
additional rent per month; $29,954 X 9 months (from October 2004 to June 2005) =
$269,586 additional rent for FY 2005.

We concluded that there was no need to pay higher rent since the previous location was
under lease until 2008 and there was no need to expand square footage since staffing
levels were shrinking. As of February 2006, SDWP staff was approximately 21 percent
lower than it was at the previous location. Yet SDWP had 39 percent more space at a
rental cost increase of 79 percent. Therefore, we are questioning the $269,586 as
excessive rent, which was unnecessary for DOL programs. In addition, a space
utilization study to determine if SDWP was utilizing their space properly is critical to
determining appropriate rent charges.

Auditee Response

Overall, SDWP did not agree with our audit results and conclusions. SDWP did not
believe that it had misinterpreted the regulations and stated that it believed all expenses
associated with the new building were both reasonable and allocable. We summarized
SDWP’s comments on each issue for Finding 1a in the following paragraphs.

Unused Building Space

SDWP disagreed that the unused building space was not reasonable or allocable
expense. SDWP stated it took all reasonable steps to fill the unexpected vacant space
including aggressively marketing the available space to both nonprofit and commercial
tenants. SDWP also provided a detailed explanation of events, which occurred during
the planning for the relocation of the One-Stop Center and SDWP headquarters.
According to SDWP, the events culminating in the vacant space were not foreseeable
and should be allowable as costs associated with idle facilities under OMB Circular
A-122.

SDWP also computed a different amount of building costs allocable to SDWP space in
FY 2005. The differences primarily related to when SDWP occupied the building space
and the amount of actual space SDWP occupied. SDWP stated it occupied a portion of
the building (7900 square feet) earlier in FY 2005 than OIG had calculated. There were
also small differences related to a rent increase and an amount paid for tenant
improvements.

SDWP conceded that the rent associated with the vacant retail space might be
unallowable. The rent associated with this space was $134,119. SDWP requested that
OIG reduce the questioned cost to $134,119, which SDWP agreed to resolve through
the formal Department of Labor Audit Resolution Process.

SDWP also stated it has procedures in place to ensure that only allowable building
space is charged to DOL grants.



12                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


Early Lease Termination

SDWP considered the early lease termination costs of $242,023 to be allowable,
reasonable, and allocable. SDWP stated that due to unexpected changes with building
tenants, SDWP was forced to decide between paying rent on two spaces or terminating
the lease at 1551 Fourth Avenue and moving its administrative/corporate headquarters
to 3910 University Avenue. SDWP concluded, based on the circumstances prevailing
at the time, the decision to terminate the lease at 1551 Fourth Avenue was reasonable
and allocable. However, SDWP agreed to resolve the early lease termination issue
through the formal Department of Labor Audit Resolution Process.

Excessive Rent

SDWP disagreed that there was excessive rent. SDWP stated that it does not occupy
more space at 3910 University Avenue than it did at 1551 Fourth Avenue. SDWP
stated that the additional cost associated with rent in the new building is minimal when
comparing the cost of the monthly rent for just the administrative office space at 3910
University Avenue to the previous location. SDWP stated the additional space in the
new building should not be included in this comparison because it represented space
needed but not provided at the old location, such as meeting rooms, a computer-training
lab, and storage space. Using SDWP’s calculations, the new rent is $37,768.26 as
compared to $37,638 in the old building. SDWP stated the difference is minimal and
should not have been classified as excessive rent.

SDWP also stated that a space utilization study is not necessary as the only vacant
space at 3910 University Avenue was Suite 122, for which SDWP stopped paying rent
in August 2005. However, if the Assistant Secretary for Employment and Training
deems a space utilization study is necessary, SDWP will cooperate fully.

OIG Conclusion

Unused Building Space

We conclude that the costs questioned in this finding are unallowable. OMB Circular
A-122 states that a cost is allocable to grants only to the extent benefits are received.
DOL grants received no benefit from these costs. In addition, as SDWP states in their
response, OMB Circular A-122 does allow the cost of idle facilities in certain situations
where the facilities were necessary when acquired and are now idle because of
changes that could not have been reasonably foreseen. However, since the Metro
Center only needed about 40,000 square feet and SDWP committed itself to a 30-year
lease for over 82,000 square feet, we believe the excess space was never needed for
DOL related purposes.

We do not agree that the use of 7900 square feet of space prior to the SDWP move was
an allowable cost. This cost related to establishing a property management office that
we believe was necessitated by the decision to lease the entire building and is unrelated


U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


to DOL grants. We did make minor adjustments from the draft report to reflect rent
increases and cost of tenant improvements.

After considering SDWP’s response, we believe the recommendations concerning
unused building space to be valid and unresolved. Also, we believe that ETA should
still require a space utilization study to determine if SDWP was utilizing its space
properly.

Early Lease Termination

The need to break the lease on SDWP headquarters space occurred because of the
decision to lease excess space at the new building and not because of any change in
program requirements. Therefore, we continue to believe the early lease termination
costs are unallowable and our recommendations are still valid and unresolved.

Excessive Rent

The significant increase in rent is only partially attributable to additional space for
meeting rooms, etc. As the Rent Analysis chart on page 11 of the report shows, space
increased by 39 percent while total rent increased by 79 percent. Therefore, about one-
half of the rent increase is due to increased space and the other half due to more
expensive rent.

However, we continue to question whether any of the increase was necessary. There
were no indications that SDWP moved its headquarters due to space needs or any
program need. SDWP moved its headquarters due to the excess space encountered
because of its decision to lease the entire new building. This resulted in a rent increase
of almost $30,000 per month that, in our opinion, did not benefit DOL programs. We
consider our recommendations on excessive rent to be valid and unresolved.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

     1. Recover $763,543 as the cost of unused building space.

     2. Require SDWP to implement procedures so that only allocable building costs are
        charged to DOL grants.

     3. Recover $242,023 associated with the cost of early lease termination.

     4. Recover $269,586 paid as excessive rent.

     5. Perform a space utilization study to determine if SDWP was utilizing its space
        properly.



14                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


Finding 1b. Equipment Purchase-Sale-Leaseback transaction

SDWP incurred $1.3 million in costs, which were unallowable as charged for a
purchase-sale-leaseback transaction. This occurred because SDWP misinterpreted the
requirements of OMB Circular A-122 regarding equipment leasing costs. As a result,
we are questioning $216,850 in excess cost paid on the lease as unallowable. We are
also questioning the remaining $1.1 million equipment purchase price, which may have
been improperly allocated to DOL grants by SDWP over the 3-year lease period.

From August 1999 to June 2000, SDWP bought various types of equipment and
software from several vendors totaling $1,105,577. The purchases included such things
as computer servers, website development software, and network operating system
software. In August 2000, SDWP packaged and sold the equipment and software to a
bank for $1,070,755, and then leased the same equipment back from the bank for 3
years. SDWP stated that it had originally intended to finance this equipment rather than
purchasing it for cash. SDWP wanted to spread the purchase cost over several years
but setting up the financing arrangement took time. Therefore, to get the project
started, SDWP decided to purchase the equipment and then to subsequently set up a
sale and leaseback. The lease payments for the 3 years totaled $1,322,427.

OMB Circular A-122 limits the Federal share of sale and leaseback transactions.
Paragraph 43(b) specifically states:

       Rental costs under “sale and leaseback” arrangements are allowable only
       up to the amount that would be allowed had the nonprofit organization
       continued to own the property. This amount would include expenses such
       as depreciation or use allowance, maintenance, taxes, and insurance.

Therefore, the sale and leaseback presents two reimbursement problems. First, the
additional leasing cost of $216,850 is unallowable as stated in OMB Circular A-122.
SDWP must limit the cost to the original purchase price of $1.1 million. Secondly,
SDWP charged the lease cost over a span of 3 years (2001 through 2004) instead of
depreciating the original purchase price over the useful life of the equipment and
software as required by OMB Circular A-122.

We did not attempt to determine the useful life of the equipment and software to
compute allowable depreciation or use charges. The $1.1 million original purchase
price could be allowable if SDWP appropriately computed depreciation to be charged
over the useful life of the equipment and software.

Regardless of SDWP’s initial intention, eligible costs are limited to the original cost of
the equipment and software; therefore, the excess cost of $216,850 is questioned. In
addition, the original purchase price of $1,105,577 is questioned since, as part of the
lease payments, it was charged over a 3-year period instead of depreciated over the
useful life of the equipment and software.


U.S. Department of Labor—Office of Inspector General                                         15
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Auditee Response

Of the $216,850 in additional lease costs, SDWP agreed that $157,000 represented
interest charges, which might not be an allowable cost under OMB Circular A-122,
Paragraph 43(b). SDWP believes the balance of $59,850 in additional lease costs
represented sales tax that would have been an allowable cost whether the equipment
was leased or purchased. SDWP stated they would resolve the issue of additional
lease costs through the formal DOL Audit Resolution Process.

Further, SDWP contended that the vast majority of the $1.1 million in equipment
purchases were properly allocated as expenses to DOL grants. SDWP stated that of
the $1.1 million in equipment purchases:

     •   $532,669 represented costs associated with development services and that
         development services did not constitute a capital asset. Therefore, development
         services were properly expensed over the 3-year lease.
     •   $460,259 represented costs for software purchase, licenses, and support.
         According to SDWP, information technology equipment and systems are listed as
         examples of “general purpose equipment” as per OMB Circular A-122,
         Attachment B, paragraph 15, section a (4) and capital expenditures for general
         purpose equipment are unallowable as direct charges, except where approved in
         advance by the awarding agency. (See OMB Circular A-122, Attachment B,
         paragraph 15, section (b) (1).) Therefore, SDWP reasoned it was correct in
         expensing those costs.
     •   $12,186 was for hardware purchases of less than $5000 and for support, both of
         which were properly expensed.
     •   $65,641 (the final amount) was spent on hardware purchases of over $5000.
         While SDWP agrees that the $65,641 should have been capitalized, it feels that
         the useful life of this equipment was 3 years. Therefore, the issue of whether or
         not it should have been depreciated is irrelevant.

Finally, SDWP stated all of the purchased software and equipment were used to
support DOL-funded programs, and benefits accrued back to DOL, thus making the
expenses allowable. Therefore, SDWP requested that OIG consider this issue to be
resolved. However, if necessary, SDWP was willing to resolve the $65,641 in
equipment costing over $5,000 through the formal DOL Audit Resolution Process.

OIG Conclusion

OMB Circular A-122 states that allowable costs are limited to the purchase price of the
equipment. In this case, SDWP had actually purchased the equipment for $1,105,577,
prior to the leaseback. Under the circumstances, this should be the maximum allowable
by OMB Circular A-122. There are no provisions to add costs, such as sales tax, that
“would have been paid.”




16                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


Eligible equipment costs are limited to the original cost of the equipment and software;
therefore, the excess leaseback cost of $216,850 is still questioned and the
recommendation remains unresolved.

In regards to the depreciation of $1.1 million equipment, ETA still needs to determine if,
after considering SDWP’s explanations, any cost adjustments are necessary.
Accordingly, the recommendation remains unresolved.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   6. Recover the $216,850 in additional lease costs.

   7. Determine the appropriate allocation to DOL grants based on depreciation for the
      $1.1 million equipment purchase price over the useful life of the equipment and
      software and adjust the costs claimed accordingly.

Finding 1c. Unrecognized program income associated with charter, cash match,
and conference fees

SDWP did not properly recognize revenue generated from awarding One-Stop contracts
and hosting an annual conference as program income. This occurred because SDWP
misinterpreted the regulations concerning program income and retained net program
income for SDWP’s discretionary use. As a result, SDWP did not use net program
income totaling $961,490 to further program purposes as required by OMB Circular
A-110. Consequently, these funds could have been put to better use to accomplish
program goals such as improving employability opportunities in the San Diego area.

OMB Circular A-110 defines program income as: “gross income earned by the recipient
that is directly generated by a supported activity or earned as a result of the award.” In
addition, OMB Circular A-110, in part, requires that program income be added to funds
committed to the project and be used to further eligible project or program objectives.

In awarding contracts, SDWP charged One-Stop operators what SDWP called charter
fees totaling $1,055,178 and cash match fees totaling $271,687. In addition, the SDWP
received a total of $100,119 in revenue for an annual conference funded by Federal
grants. After paying allowable Workforce Investment Act (WIA) expenses, SDWP did
not treat the remaining revenue as program income. The specifics pertaining to each
program income area are discussed in the following sections.

Charter Fees

In FY 2000, SDWP began charging a fee (charter fee) to potential subgrantees who
submitted bids on the One-Stop Center contracts. SDWP required these charter fees to
be paid as a condition for bidding on the One-Stop Center contracts. The SDWP

U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


described the charter fee and related requirements to potential bidders in the Request
for Proposals (RFP) for the contract on the One-Stop Centers. The RFP instructed
interested bidders to submit the required charter fee as part of their bid package.
Additionally, bidders were instructed to use non-federal funds to pay the charter fee and
that non-successful bidders would have the fee refunded. Initially in FY 2000, the
minimum amount of the charter fee was $10,000 per One-Stop contract. The amount
increased each year and the maximum fee reached $50,000 per One-Stop contract in
FY 2005.

The amount of the charter fee was based on the amount of the funding for the
geographical area of the One-Stop identified in the RFP. SDWP set forth in the RFPs
how this money was to be used. Specifically, the RFPs stated:

       The charter fee will enable the Workforce Partnership to embark on
       entrepreneurial initiatives that are not directly linked to WIA funding. More
       specifically, these discretionary funds will allow the Workforce Partnership
       to perform advocacy, research, and employer outreach/services. All of
       these activities will benefit the One-Stop Career Center Network by
       influencing national and State workforce policy, generating cutting-edge
       workforce studies, and creating strong links with San Diego County
       employers.

In FY 2003, SDWP began allowing One-Stop operators to submit WIA allowable
expenses to SDWP for reimbursement from charter fees collected. SDWP used charter
fees to reimburse $323,195 of WIA allowable expenses between FY 2003 and FY 2004.
However, we did not observe any payments in FY 2005.

The following provides a snapshot of the amount of charter fee revenue collected for
each year beginning in FY 2000 through FY 2005 and the amount of WIA allowable
expenses paid by SDWP on behalf of the One-Stop operators.

                         Analysis of Charter Fees by Fiscal Year

 Fiscal       Annual Revenue           Annual Payments of WIA              Annual Net
  Year           Received                Allowable Expenses              Program Income
  2000              $ 50,000                           $      0                 $ 50,000
  2001                 100,000                                0                    100,000
  2002                 150,000                                0                    150,000
  2003                 150,000                           99,199                     50,801
  2004                 404,927                          223,996                    180,931
  2005                 200,251                                0                    200,251
TOTALS              $1,055,178                         $323,195                  $731,983

SDWP received $1,055,178 in charter fees from subgrantees and paid $323,195 in WIA
allowable expenses, leaving a total of $731,983 in net program income that was not
applied to the program as required by OMB Circular A-110. The program income was

18                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


generated directly by the award of contracts under a WIA grant received by SDWP, and
SDWP should have classified those fees as program income instead of discretionary
funds. Therefore, SDWP needs to reclassify the charter fees as program income and
use the funds for program purposes.

In addition to the requirements specified in OMB Circular A-110 for program income, we
believe there are violations of procurement regulations. We believe that the Charter fee
requirements created a barrier to open competition in the procurement process. Our
concerns are discussed on pages 30 to 33 of this report. (Finding 2a)

Cash Match Fees

In FY 2004, SDWP began charging an additional fee for the award of the One-Stop
contracts. SDWP referred to the new fee as a cash match fee. SDWP required
successful One-Stop bidders to pay SDWP a fee equal to 3 percent of its region’s
estimated formula funding. This fee was due within 3 business days of the SDWP
approval of the One-Stop contract award.

Like the charter fee, the cash match fee was required to be paid using non-federal
funds. Unlike charter fees, SDWP specified in the RFP that cash match fees would be
used to pay WIA eligible program expenses submitted by One-Stop operators. During
the contract period, the One-Stop contractors identified certain expenditures that were
to be reimbursed by SDWP using cash match funds.

We found that SDWP did collect the fees in advance and paid some expenses from the
funds received. However, SDWP did not use all the cash match funds toward One-Stop
operation expenses. As the following table shows, SDWP retained $129,388 in cash
match fees as of the end of FY 2005:

                     Analysis of Cash Match Fees by Fiscal Year

  Fiscal         Cash Match            Reimbursements to One-
                                                                         Program Income
   Year           Received                 Stop Operators
   2004                $142,300                        $ 94,659                    $ 47,641
   2005                 129,387                          47,640                      81,747
  Totals               $271,687                        $142,299                    $129,388

Despite SDWP using the cash match fees to pay program expenses, SDWP officials
informed us that the funds were considered discretionary. The WIB meeting minutes
stated that the WIB decided on an annual basis how to spend the funds based on staff
recommendations.

In accordance with OMB Circular A-110, cash match fees should be considered
program income and the fees SDWP has already collected should be used to further
program purposes.



U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


In addition to the requirements specified in OMB Circular A-110 for program income, we
believe there are serious violations of procurement regulations. We specifically believe
that the cash match fee requirements provided a barrier to open competition in the
procurement process. Our concerns are discussed on pages 30 to 33 of this report.
(Finding 2a)

Workforce Summit Revenue

In 1997, SDWP began hosting a conference, known as the Workforce Summit, to
discuss issues affecting dislocated workers. This conference included attendees from
regional business, government, education and training, and community leaders. In FY
2004, SDWP began charging registration and sponsorship fees to attend the
conference. SDWP also received donations related to the workforce summit. In FY
2004 and FY 2005, SDWP collected registration fees, sponsorship fees, and donations
totaling $200,578.

The Workforce Summit was funded by DOL grant funds. Specifically, SDWP received
money to host the event from a WIA Rapid Response Grant. Consequently, the
registration, sponsorship fees, and donations meet the definition of program income.
OMB Circular A-110 defines program income as “gross income earned by the recipient
that is directly generated by a supported activity, or earned as a result of the award.” As
noted earlier, the Circular requires net program income to be used for program
purposes.

SDWP, however, did not treat the registration, sponsorship fees, and donations entirely
as program income as required by the Circular. We found that SDWP received
$200,578 of registration, sponsorship fees, and donations from the Workforce Summit in
FY 2004 and FY 2005. Of the Workforce Summit expenses totaling $442,805 for the
two years, $100,459 was paid using the program income collected. The remaining
$100,119 was not spent on Workforce Summit expenses. Instead, as of June 30, 2005,
SDWP was still holding these funds but considered those funds to be subject to their
discretionary use.

The SDWP did not consider the revenue as program income. In FY 2004, we identified
a transaction where SDWP transferred $71,600 from the grant fund to a discretionary
fund. In SDWP’s opinion, the revenue did not meet the definition of program income set
forth in OMB Circular A-110 because SDWP considered the funds as representing
donations.

We disagree. The registration, sponsorship fees, and donations meet the definition of
program income provided by OMB Circular A-110. Consequently, SDWP did not
comply with OMB Circular A-110.

As a result of this noncompliance with OMB Circular A-110, SDWP did not use program
income totaling $100,119 to further the eligible project or program objectives. In



20                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                           Audit Of San Diego Workforce Partnership, Inc.


accordance with OMB Circular A-110, this money should be used for additional job
training or supportive services such as transportation or childcare.

Summary of Net Program Income

SDWP retained net program income of $961,490 from charter fees, cash match fees,
and workforce summit revenue for SDWP’s discretionary use instead of using the net
program income for program purposes.

                                   Source of Net Program Income

                    Charter Fees                                                 $731,983
                    Cash Match Fees                                               129,388
                    Workforce Summit                                              100,119
                    Total Net Program Income                                     $961,490

Auditee Response

SDWP disagreed with the OIG that the revenue from the charter fees, cash matches,
and the workforce summit should be treated as program income. However, SDWP
stated that regardless of how this revenue is classified the funds were in fact spent on
allowable WIA program activities.

Charter Fees

SDWP stated that charging charter fees was discussed and actually encouraged by
DOL in the development of WIA. SDWP further stated that numerous models were
tested and SDWP decided to adopt a model used in the Boston workforce area.

SDWP also stated “both OMB circular A-110 and 29 CFR 95.22 allow charter fees to be
collected, and that those fees should not be considered program income:

        (e) Unless DOL's regulations or the terms and conditions of the award
        provide otherwise, recipients shall have no obligation to the Federal
        Government with respect to program income earned from license fees.”1

Further, SDWP stated that charter fees were not necessarily collected or expensed
during each of the fiscal years for which they were identified and as of June 30, 2006,
only $83,738 remained unspent. Consequently, SDWP requested that the OIG review
submitted documentation to reflect the additional program costs in the audit report.




1
 SDWP incorrectly cited 29 CFR 95.22 in its formal comments (See Appendix D). However, Subparagraph (e), as
shown above, correctly provides a partial quote of 29 CFR 95.24. OMB Circular A-110 does not contain this quote.

U.S. Department of Labor—Office of Inspector General                                                           21
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Cash Match Fees

SDWP stated the cash matches from non-federal sources should not be considered
program income; the cash matches should be seen as a vehicle to pay for the non-
federal portion of the work being done in the One-Stops; and as an opportunity to begin
building the long-term sustainability of the system. SDWP believes that this
interpretation is in line with the Administration’s approach to leveraging resources in the
President’s High Growth Job Training Initiative, Community-Based Job Training Grants,
and the Workforce Innovation in Regional Economic Development (WIRED) Initiatives.

SDWP stated that nothing in OMB Circular A-110 indicated the cash matches met the
definition of “program income,” and argued that Section 195(7)(B) of the Act would
exclude cash matches as “income subject to the requirements of Section 195(7)(A).”

Workforce Summit Revenue

SDWP stated that sponsorships for the Workforce Summit were in fact charitable
donations to SDWP as a 501 (c)(3) nonprofit corporation and did not constitute a form of
program income. Further, SDWP stated that the interpretation of charitable donations
as program income was neither the intent of the Act and such an interpretation does not
support the Administration’s approach to innovation. Lastly, SDWP stated that the
authorizing committee in the U.S. House is considering amending the Act to clarify
Congressional intent.

Given the serious program policy implications of the issues raised by OIG, SDWP
requested, by separate letter, a formal policy interpretation from the Assistant Secretary
for Employment and Training on whether charter fees, cash matches, and charitable
donations are to be treated as program income or unrestricted revenue.

OIG Conclusion

As stated in this report, OMB Circular A-110 defines program income as “gross income
earned by the recipient that is directly generated by a supported activity or earned as a
result of the award.” In addition, OMB Circular A-110, in part, requires that program
income be added to funds committed to the project and be used to further eligible
project or program objectives. Since charter, cash match, and Workforce Summit fees
were generated by a supported activity or earned as a direct result of the Federal
awards, charter, cash match, and Workforce Summit fees must be treated as program
income.

Further, SDWP’s quote of 29 CFR 95.24 is incomplete. The full quote states:

       Unless terms and condition of the award provide otherwise, recipients
       shall have no obligation to the Federal Government with respect to
       program income earned from license fees and royalties for copyrighted



22                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


       material, patents, patent applications, trademarks, and inventions
       produced under an award (emphasis added).

The above CFR citation only applies to license fees and royalties and, in our opinion,
would not include charter fees, cash match, or Workforce Summit revenues.

Charter Fees

SDWP’s reference to adopting the Boston model for charter fees is inaccurate. We
discussed the Boston model with ETA officials and found there were significant
differences between the Boston model and SDWP’s process. The key difference
related to program income is that Boston charges the fees for services they perform.
Boston uses the fees for program services, not discretionary purposes.

Cash Match Fees

We disagree with SDWP’s definition of program income and, as previously mentioned,
OMB Circular A-110 defines program income as “gross income earned by the recipient
that is directly generated by a supported activity or earned as a result of the award.”

Workforce Summit Revenue

We do not agree that the Workforce Summit revenues were charitable donations.
SDWP asked for “sponsors” for the conference and awarded different levels of
sponsorship for varying amounts of money. We did not see any information that
requested a general contribution to SDWP operations unrelated to the Workforce
Summit.

Overall, we do agree that if SDWP primarily used the charter, cash match, and
workforce summit revenue for program purposes after our cutoff date, our
recommendation regarding using the funds would be resolved. Since it occurred after
our audit cutoff date, we did not verify this and ETA needs to ensure this occurred.
However, since we disagreed on whether SDWP is required to treat charter fees, cash
match fees, and Workforce Summit revenues as program income, the recommendation
is still valid and remains unresolved.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   8. Require SDWP to account for the net charter fees of $731,983, net cash match
      fees of $129,388, and net workforce summit revenue of $100,119 as net program
      income totaling $961,490 and require that those funds be used for allowable
      program purposes.




U.S. Department of Labor—Office of Inspector General                                       23
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Finding 1d. Noncompliance with Salary Cost Distribution System Requirements

For FYs 2003 through 2005, SDWP did not distribute $11.6 million in employee salaries
and associated costs to grants based on actual time spent on the grants in accordance
with OMB Circular A-122. Instead, predefined percentages based on estimates were
used to distribute salaries of employees who worked on multiple grants. This occurred
because, prior to FY 2006, SDWP’s salary cost distribution system did not comply with
OMB Circular A-122 requirements. Without a proper salary cost distribution system,
there was insufficient assurance that all salary costs charged to DOL grants prior to FY
2006 were accurate.

OMB Circular A-122 Attachment B requires that:

              (1). . . .The distribution of salaries and wages to awards
              must be supported by personnel activity reports, as
              prescribed in subparagraph (2)...

              (2) Reports reflecting the distribution of activity of each
              employee must be maintained for all staff members
              (professionals and nonprofessionals) whose compensation
              is charged, in whole or in part, directly to awards.

                  (a) The reports must reflect an after-the-fact
                  determination of the actual activity of each employee.
                  Budget estimates (i.e., estimates determined before the
                  services are performed) do not qualify as support for
                  charges to awards. (Emphasis added.)

Prior to FY 2006, the salary cost distribution system did not record employees’ actual
work time on each of the DOL grants. Instead, salary cost distribution was done within
the accounting process based on percentages. Those percentages were generally
established at the beginning of each fiscal year based on estimated time each
employee would spend on each grant during the fiscal year. According to SDWP
officials, those estimates would be adjusted during the year if circumstances changed.

As noted earlier, however, this does not comply with OMB Circular A-122 which
requires salary cost distribution to be based on an after-the-fact determination of actual
time spent on the grants. As a result, the distribution of salary costs was unsupported.

To determine whether employees worked on the grants their salaries were charged to,
we judgmentally selected four SDWP employees for interviews whose salaries were
charged to multiple grants. In our interviews we asked the employees what grants they
worked on and the estimated percentage of time spent on each grant.

All employees said they worked on the grants to which their salaries were charged.
However, three of the four employees provided estimates of the percentage of time

24                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


spent on each grant that varied from the percentages used by SDWP. The following
charts show these variances.

                          Employee Time Allocation Analysis

              Program                               Employee A
                                             Budgeted by    Estimated by
                                               SDWP          Employee
              Youth at Work 03-04                10%             10%
              Grossmont STC 04-05                25%             15%
              Price Charities                    15%             15%
              SUHSD STC 04-05                    50%             60%
              Total                             100%            100%

              Program                               Employee B
                                             Budgeted by    Estimated by
                                               SDWP          Employee
              Earmark-P                          10%             15%
              Bio Science                        80%             85%
              General                            10%              0%
              Total                             100%            100%

              Program                               Employee C
                                             Budgeted by    Estimated by
                                               SDWP          Employee
              Bio Science                        50%             10%
              Rapid Response 04-05               50%             65%
              General                             0%             25%
              Total                             100%            100%

We recognize that employee estimates may not be any more accurate than SDWP’s
budgeted percentages; however, the variances support the need to record actual time
spent on each grant.

SDWP’s salary costs for grants were significant. For FY 2003 through FY 2005, SDWP
administered approximately 40 grants and incurred direct grant salary charges
approximating $11.6 million. Since Congress mandates how funds for each program
must be spent, it is critical that salary costs be distributed accurately to those grants.

At the beginning of FY 2006, SDWP changed its salary cost distribution system and
made the necessary changes to distribute salary costs based on the actual hours
worked for each grant. However, using the criteria in OMB Circular A-122, SDWP’s
grant salary costs prior to FY 2006 are considered inadequately supported.




U.S. Department of Labor—Office of Inspector General                                       25
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Auditee Response

SDWP stated it has updated its timekeeping system. The updated timekeeping system
now strictly complies with OMB Circular A-122 Attachment B; however, SDWP asserted
that its prior methodology with respect to timekeeping was allowable under OMB
Circular A-122.

SDWP stated it based employee’s payroll allocations on discussions with directors who
gave reasonable estimates of time in percentages to the finance department. These
reasonable estimates of time were reviewed when the budget was modified. Each
reasonable estimate of time was based on the projects in individual departments.
SDWP contended that the chart in our report entitled “Employee Time Allocation
Analysis” supports its assertion that reasonable estimates of time were made. SDWP
also believes this methodology is allowable under A-122.

SDWP also stated that salary costs were reviewed each time they submitted a grant
application and were never deemed to be unreasonable. SDWP believed that the
methodology used provided a “reasonable estimate”.

Finally, SDWP stated they performed a preliminary analysis, on a grant-by-grant basis,
of the $11.6 million in direct labor costs and associated charges for FY 2003 through
FY 2005. The analysis revealed that 54 percent (or $6.3 million) of employee labor was
100 percent dedicated to a single cost objective. Therefore, SDWP requested that the
OIG reduce the amount recommended for analysis from $11.6 million to $5.3 million,
which is the most that was charged to multiple grants over the period.

OIG Conclusion

SDWP’s labor cost distribution system did not meet one critical requirement of OMB
Circular A-122. The Circular specifically requires that time reports must reflect an after-
the-fact determination of the actual activity of each employee. SDWP based its
allocations on before-the-fact determinations. OMB Circular A-122 specifically states
“budget estimates (i.e., estimates determined before the services are performed) do not
qualify as support for charges to awards.” Therefore, we consider the charges
unsupported.

The reasonableness of the $11.6 million in allocated labor costs and associated
charges still needs to be resolved. Our recommendations remain unresolved until this
is accomplished.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

     9. Analyze $11.6 million in direct labor costs and associated charges on a grant-by-
        grant basis for FY 2003 through FY 2005 and determine if those costs were


26                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


       reasonable for the products and services received.

   10. Based upon the results of the labor cost analysis, recover any amounts
       determined to be unreasonable in relation to the products and services received.

Finding 1e. Noncompliance with Indirect Cost Proposal Requirements

From FY 2002 through FY 2005, SDWP did not comply with OMB Circular A-122’s
indirect cost proposal requirements. Specifically, SDWP did not submit its final indirect
cost proposals to DOL for approval. This occurred because SDWP was waiting for
approval and feedback from DOL on previously submitted final indirect cost proposals
before submitting the remaining proposals. Since SDWP had not submitted its final
indirect cost proposals, SDWP’s actual grant costs could not be computed for the
periods FY 2002 through FY 2005. However, using the actual but unsubmitted rates
developed by SDWP for that period, we estimated $5.9 million in overpayments may be
refundable as of June 30, 2005.

OMB Circular A-122 establishes criteria for indirect cost reimbursement. The Circular
allows grantees to develop a provisional indirect cost proposal based on estimates to
calculate temporary rates for billing indirect costs during a fiscal year. The Circular then
requires grantees to prepare a final indirect cost proposal within 6 months after the
close of the fiscal year using actual costs for the year. Further, the Circular requires
grantees to submit the final indirect cost proposal to its major Federal funding agency
for approval. Accordingly, grantees such as SDWP should recalculate grant indirect
costs from provisional amounts to actual costs based on the final approved rate.

SDWP had not met these criteria for the last 4 years. SDWP’s final indirect cost
proposal was due December 31st following each fiscal year. As of April 2006, SDWP
had not submitted the required indirect cost proposals for FY 2002 through FY 2005.

SDWP was waiting for the approval and feedback from DOL on previously submitted
final indirect cost proposals before submitting additional proposals for FY 2002 through
FY 2005. SDWP had previously submitted final indirect cost proposals, but had not
received DOL approval for those proposals. Although SDWP had calculated its final
indirect cost rates for those periods, SDWP wanted to resolve any problems with DOL
before submitting any additional indirect cost proposals.

The delay in submitting final indirect cost proposals may be having a material effect on
grant costs. The following table shows the approved provisional rates; the final rates
SDWP proposed; and the potential $5.9 million in overpayments.




U.S. Department of Labor—Office of Inspector General                                       27
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


                          Potential Indirect Cost Overpayments

                               SDWP Proposed        Approved      Proposed Final Indirect
                Total Direct
                                Final Indirect     Provisional      Rate less Approved
                Costs Base
                                    Rate          Indirect Rate   Provisional Indirect Rate

     FY 2002     $16,899,003            42.15%          67.93%          ($4,356,053)
     FY 2003     $22,074,202            22.77%          42.15%          ($4,276,903)
     FY 2004     $15,510,841            24.79%          22.77%           $ 312,629
     FY 2005      $9,607,219            47.86%          22.77%           $2,410,442
      Totals                                                            ($5,909,885)

As the table shows, there is over $5.9 million in potential overpayments over 4 years.
However, it should be noted the SDWP’s proposed final indirect cost rates have not
been approved by DOL and could be higher or lower when finalized. In addition, DOL
has not approved final indirect cost rates for at least 2 years prior to FY 2002, which
would also affect any potential overpayments.

Auditee Response

On September 28, 2006, SDWP submitted its final indirect cost proposals for
FY 2002 through FY 2005 to the Office of Cost Determination. SDWP also
stated that during FY 2002 through FY 2005 SDWP did not allocate costs based
on the proposed final indirect rates but instead allocated based on actual costs
incurred.

Further, SDWP stated that its indirect costs never exceeded more than 15% of
SDWP’s annual budget. SDWP stated that its defined indirect costs have
evolved over the years, resulting in a change in methodology for FY 2006. For
the past 2 years, cost pools were developed to identify direct relationships to
certain grants, and activity-based costing was used to pool expenses directly to
program activities. This methodology, developed in conjunction with the Office
of Cost Determination, has resulted in a reduction of indirect costs.

SDWP believes that the “Potential Indirect Cost Overpayment” chart shown in
the OIG report is not accurate given the packages submitted to the Office of
Cost Determination. In SDWP’s opinion, the $5.9 million in potential indirect
cost overpayments bears no actual relationship to the costs actually incurred
and allocated by SDWP. Further, SDWP believes that no overpayment
occurred. Once SDWP receives approval of the final indirect cost proposals it
will take appropriate actions as necessary to reconcile its books.

OIG Conclusion

OIG confirmed that the Division of Cost Determination had received SDWP’s indirect
cost proposals for the fiscal years ending June 30, 2002 through June 30, 2005.
Therefore, we consider these recommendations resolved and open. The

28                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


recommendations will be closed when SDWP makes any necessary adjustments to
grant costs.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   11. Require SDWP to submit final indirect cost proposals for FY 2002 through
       FY 2005 to DOL for approval of SDWP’s indirect cost rates for those years.

   12. Request the Assistant Secretary for Administration and Management to complete
       the review and approval of SDWP’s final indirect cost rates for FY 2000 and
       FY 2001, and, upon receipt, process for review and approval the final indirect
       cost proposals that will be submitted by SDWP for FY 2002 through FY 2005.

   13. Require SDWP to recalculate its indirect costs based upon the DOL approved
       final indirect cost rate and make adjustments as needed for any over- or under-
       payments.

Objective 2 – Did SDWP comply with applicable laws and regulations?

Finding 2. SDWP did not comply with all applicable laws and regulations.

SDWP did comply with applicable laws and regulations, including OMB Circular A-133,
as related to the independence of its auditing firm. We reviewed the concerns
expressed by the ETA Regional Administrator regarding SDWP’s auditing firm’s
potential independence conflict. We concluded that SDWP’s auditing firm met the
independence requirements established by the American Institute of Certified Public
Accountants and by OMB Circular A-133.

However, SDWP did not comply with applicable laws and regulations pertaining to
procurement and property management. Specifically, we found that:

   a. SDWP created a barrier to competition in the procurement process for soliciting
      and awarding One-Stop contracts by requiring improper charter and cash match
      fee assessments. (Finding 2a)

   b. SDWP did not adequately solicit small businesses, minority-owned firms, and
      women’s business enterprises. (Finding 2b)

   c. SDWP did not perform price or cost analyses for contracts awarded. (Finding 2c)

   d. SDWP equipment records did not contain all information required by OMB
      Circular A-110. Additionally, SDWP did not document its physical inventory of
      equipment or reconcile results to equipment records. (Finding 2d)


U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


As a result, (1) SDWP awarded One-Stop contracts in excess of $9 million for FY 2004
without maximum competition, and could not assure DOL received the best services for
the best price, (2) small businesses, minority-owned firms, and women’s business
enterprises may not have been utilized to the maximum extent possible in SDWP’s
$32.2 million in procurements for FYs 2003 and 2004, (3) there is a lack of assurance
that contract cost was appropriate, and (4) DOL funds could be negatively impacted
from incomplete and inaccurate equipment records.

Finding 2a. The SDWP created a barrier to competition in the procurement
process for soliciting and awarding One-Stop contracts by requiring improper
charter and cash match fees.

As previously discussed in Objective one,2 the SDWP required charter and cash match
fees as a part of the awarding of One-Stop contracts. This occurred because the
SDWP considered charter and cash match fees useful in executing entrepreneurial
initiatives not directly related to WIA funds and raising discretionary funds.
Consequently, by imposing those fees, the SDWP created a barrier to competition,
which is prohibited by OMB Circular A-110. Further, organizations interested in bidding
on the One-Stop contracts that did not have non-federal funds required by SDWP lost
an opportunity to bid on the contracts. In addition, without reviewing bids from all
potential organizations interested in One-Stop operations, the SDWP may not have
selected the operators with the most innovative and effective approach to One-Stop
operations. Finally, SDWP may not have received the best services for the best price.

OMB Circular A-110 established procurement requirements that DOL nonprofit grantees
must follow. Specifically OMB Circular A-110 requires, in part, that “all procurement
transactions be conducted in a manner to provide, to the maximum extent practical,
open and free competition.” SDWP did not meet these requirements. Specifically,
SDWP required the selected bidders to submit charter and cash match fees as a
condition of the award of One-Stop contracts.

The charter fees were cash payments all bidders had to pay at the time of submitting a
bid in order to be considered for the award of the contract. The cash match fees were
cash payments selected bidders had to pay within 3 days of being awarded the
contract. SDWP required both fees to be paid using non-federal funds. The amounts
required were computed in two different ways: charter fees were based on the funding
for the One-Stop's geographical area and varied from $10,000 to $50,000 per bid.
Charter fees were refundable to bidders not selected. Cash match fees were set at 3
percent of the One-Stop funding and varied from about $25,000 to $50,000 for the
selected bid.

SDWP set forth in the RFPs how this money was to be used. Specifically, the RFPs
stated:


2
    See pages 17 to 23 in this report.

30                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


       The charter fees will enable the Partnership to embark on entrepreneurial
       initiatives that are not directly linked to WIA funding. More specifically,
       these discretionary funds will allow the Workforce Partnership to perform
       advocacy, research, and employer outreach/services.

For the cash match fee, the RFP identifies the fee as another funding source. The RFP
also stated that the cash match fees would be used to offset career center operating
costs.

To determine if imposing the charter and cash match fees established a barrier to
competition in the One-Stop procurement process, we interviewed SDWP personnel,
representatives of organizations who had indicated their intent to bid, and One-Stop
operators.

During our interviews, SDWP management stated that SDWP held public forums and
invited public comments concerning the fees and that no objections were raised.
SDWP management did not believe the fees created a barrier.

Potential contractors disagreed with SDWP management’s position. We identified 20
organizations that previously indicated their intent to bid on the One-Stop contracts. We
were able to contact 14 of these organizations. Ten of the organizations contacted
stated that the fees were definitely a barrier to their participation and the organizations
were unable to participate in the One-Stop procurement process because they could not
afford the fees. These were primarily nonprofit organizations that did not have the cash
up front yet felt strongly that they were able to provide the services required. Several
indicated that they had expressed their concerns to SDWP but to no avail.

Four of the 14 were successful bidders who had paid the charter and cash match fees
and received a contract. Even so, virtually every one of the organizations indicated they
either had problems raising the cash or questioned the practice as part of competitive
procurement. Overall, interviewees strongly disagreed with the SDWP practice of
charging the fees in the award of the One-Stop contracts and questioned the legality of
the practice.

We concluded that the charter and cash match fees created a barrier to competition for
the One-Stop procurement process. SDWP awarded One-Stop contracts in excess of
$9 million for FY 2004 without maximum competition and could not assure DOL
received the best services for the best price.

As a result, SDWP may not have obtained the best One-Stop services for the best
price. Barriers may have prevented some qualified organizations from providing what
may have been an innovative approach to One-Stop operations. For example, one
organization prevented from bidding because of the fees was already a successful job
training contractor with DOL. SDWP lost the opportunity to consider this organization’s
job training experience.



U.S. Department of Labor—Office of Inspector General                                       31
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Auditee Response

SDWP disagreed with OIG that a barrier to competition was created in the procurement
process for soliciting and awarding One-Stop contracts by requiring charter and cash
match fees. SDWP stated charter and cash match fees in and of themselves are not
improper. SDWP cited Boston, among other workforce areas, as collecting charter fees
since 1998, and stated DOL has been encouraging cash matches, or leveraged
resources, in its most recent procurements.

SDWP stated that, in the calendar period 2000 through 2004, they held extensive public
hearings prior to releasing their first Request for Business Plans (RFBP) and had not
heard any objections to charging charter or cash match fees. SDWP also stated they
felt it was a reasonable prerequisite for any successful bidder on the procurement.
They felt the RFBP procurement was not the usual procurement and warranted special
provisions. Specifically, SDWP stated:

       SDWP does want to emphasize that the RFBP was not a traditional
       request for proposal that would normally be issued for a service provider.
       SDWP was seeking organizations that could not only run a multi-million
       dollar enterprise, but could prove that they could also bring other
       partners – not subcontractors – to the table, in addition to the 17
       mandated by the Job Training Partnership Act, and provide a true
       business plan on how the scope of the One-Stops could be expanded.
       SDWP felt, and still feels, that if a bidder could not leverage $10,000 in
       non-federal dollars from its partners it was/is unlikely that they would be
       successful. This approach seems in accordance with DOL’s policy
       initiatives.

SDWP stated that its program performance and One-Stop system had been used as a
national benchmark and SDWP believes that, in fact, bidders were chosen who are
innovative, effective, and cost efficient.

Finally, SDWP noted that because of the concerns raised by OIG, SDWP stopped
levying charter and cash match fees effective July 1, 2006, and will continue to do this
until the issue is resolved. Therefore, SDWP requested that OIG consider the finding
resolved. However, SDWP has raised this serious policy issue in a separate letter to
the Assistant Secretary for Employment and Training requesting a policy interpretation
on the allowability of charging charter fees and encouraging cash matches from non-
federal sources outside of the procurement process.

OIG Conclusion

We continue to believe the charter and cash match fees created a barrier to competition
for the One-Stop procurement process. As noted in the report, we interviewed
companies that did not bid on the procurements, ones that did but were not successful,
and ones that were successful. All expressed concern over the charging of charter and


32                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


cash match fees. These concerns may have prevented some qualified organizations
from providing what may have been an innovative approach to One-Stop operations.
Therefore, we still conclude SDWP awarded One-Stop contracts in excess of $9 million
for FY 2004 without maximum competition and could not assure DOL received the best
services for the best price.

In regards to the example of the Boston workforce area charter fee practices, SDWP
again makes an inappropriate comparison. While the Boston area has charged “charter
fees,” the requirements for when they are paid, how they are paid, and how the money
was used is significantly different. For example, in Boston, bidders are not required to
pay the fees in advance just to be able to bid. There are other differences, which make
the two situations alike in title only.

Based on the SDWP actions to stop charging charter and cash match fees, we consider
the recommendation resolved and open. The recommendation will be closed, subject to
Grant Officer’s concurrence, when ETA issues their policy interpretation on the
allowability of charging charter fees and encouraging cash matches from non-federal
sources outside of the procurement process.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

   14. Require SDWP to stop charging charter and cash match fees as part of the
       One-Stop contract award process.

Finding 2b. SDWP did not adequately encourage the use of small businesses,
minority-owned firms, or women’s business enterprises.

SDWP did not adequately encourage the use of small businesses, minority-owned
firms, or women’s business enterprises during their procurement process for FYs 2003
and 2004. Specifically, SDWP did not perform all of the procedures required by OMB
Circular A-110 regarding small businesses, minority-owned firms, and women's
business enterprises. This occurred because SDWP’s procurement procedures did not
include all of the provisions of OMB Circular A-110. As a result, during FYs 2003 and
2004, small businesses, minority-owned firms, and women’s business enterprises may
not have been fully utilized in SDWP’s contracting for $32.2 million in procurements. In
addition, SDWP may have lost an opportunity for innovative approaches for services
and products.

During FYs 2003 and 2004, SDWP conducted numerous procurement actions in
providing employment services for the San Diego area. Those procurement actions
approximated $32.2 million and included contracts for One-Stop operations, service
agreements for website development, and purchase orders for printing services. The
individual procurement actions ranged in dollar value from $25,000 to $2.4 million.


U.S. Department of Labor—Office of Inspector General                                       33
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


OMB Circular A-110 requires that grantees make positive efforts to utilize small
businesses, minority-owned firms, or women's business enterprises whenever possible.
Section 44 (b) states “Recipients of Federal awards shall take all of the following steps
(emphasis added) to further this goal.

       (1) Ensure that small businesses, minority-owned firms, and women's
       business enterprises are used to the fullest extent practicable.

       (2) Make information on forthcoming opportunities available and arrange
       time frames for purchases and contracts to encourage and facilitate
       participation by small businesses, minority-owned firms, and women's
       business enterprises.

       (3) Consider in the contract process whether firms competing for larger
       contracts intend to subcontract with small businesses, minority-owned
       firms, and women's business enterprises.

       (4) Encourage contracting with consortiums of small businesses, minority-
       owned firms and women's business enterprises when a contract is too
       large for one of these firms to handle individually.

       (5) Use the services and assistance, as appropriate, of such
       organizations as the Small Business Administration and the Department of
       Commerce's Minority Business Development Agency in the solicitation
       and utilization of small businesses, minority-owned firms, and women's
       business enterprises.

To evaluate SDWP’s compliance with these requirements, we reviewed the SDWP
procurement process and tested a statistical sample of 12 procurement actions, which
totaled $9.6 million, out of 25 processed during FY 2003 and FY 2004,. Those 12
procurements ranged in dollar value from $25,000 to $2,451,145.

For the 12 sampled procurement actions, SDWP did make information available on
forthcoming opportunities to encourage and facilitate participation by small businesses,
minority-owned firms, and women's business enterprises by maintaining a mailing list of
small businesses, minority-owned firms and women’s business enterprises. However,
SDWP did not take any of the other positive steps related to small businesses, minority-
owned firms, and women’s business enterprises required by OMB Circular A-110.

We found that the SDWP procurement process did not include all actions required by
OMB Circular A-110. None of the 12 sampled procurement actions tested showed that
SDWP: considered whether firms competing intended to subcontract with small
businesses, minority-owned firms, or women's business enterprises; encouraged
contracting with consortiums of small businesses, minority-owned firms and women's
business enterprises; or used the services of the Small Business Administration and the
Department of Commerce's Minority Business Development Agency.


34                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


For example, in one contract worth $2,451,145 processed in FY 2004 for One-Stop
services, the contractor subcontracted for more than $346,000 of services. However,
according to the contractor, SDWP never asked the contractor about using small
businesses, minority-owned firms, and women’s business enterprises or asked them to
make any special efforts as required by OMB Circular A-110.

Overall, SDWP procurement policies and procedures did not address all of the
requirements of OMB Circular A-110 concerning small businesses, minority-owned
firms, and women's business enterprises. In fact, SDWP procurement policies and
procedures were completely absent of any mention of small businesses, minority-owned
firms, and women's business enterprises.

As a result, during FY 2003 and 2004, small businesses, minority-owned firms, and
women's business enterprises may not have been utilized to the maximum extent
possible in SDWP’s contracting for $32.2 million in procurements. In addition, SDWP
may have lost an opportunity for innovative approaches for services and products.

Auditee Response

SDWP stated it has revised its procurement guidelines in accordance with OMB Circular
A-110 and will ensure that the revised guidelines are implemented by December 31,
2006. SDWP will ensure that steps are taken to identify small businesses, minority-
owned firms, and women’s business enterprises, and utilize their services to the
greatest extent possible, whether as a prime or subcontractor.

OIG Conclusion

OIG considers SDWP’s actions adequate and consider this recommendation resolved
and closed, subject to Grant Officer’s concurrence.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

 15. Require SDWP to update procedures to comply with OMB Circular A-110’s
     requirements for small businesses, minority-owned firms, and women’s business
     enterprises.

Finding 2c. SDWP did not perform price or cost analyses for contracts awarded.

SDWP did not comply with OMB Circular A-110’s requirements to perform a cost or
price analysis. Specifically, during FYs 2003 and 2004, SDWP issued 25 contracts
totaling $32.2 million and we estimated that 81 percent of those contract actions did not
have cost and price analyses executed. We believe this occurred because SDWP
misinterpreted the requirements of OMB Circular A-110. As a result, SDWP may not
have received the best value for the services and products procured during the 2-year

U.S. Department of Labor—Office of Inspector General                                       35
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


period. In addition, SDWP did not have assurance that costs were reasonable,
allowable, and allocable.

OMB Circular A-110 requires that: “Some form of cost or price analysis shall be made
and documented in the procurement files in connection with every procurement action.”
The Circular defines cost analysis as the review and evaluation of each element of cost
to determine reasonableness, allocability, and allowability. According to the Circular, a
price analysis may be accomplished in various ways including comparing price
quotations, market prices, and similar indicia.

To evaluate SDWP’s compliance with these requirements, we reviewed the SDWP
procurement process and tested a statistical sample of 12 procurement actions, which
totaled $9.6 million, out of 25 processed during FYs 2003 and FY 2004,. Those 12
procurements ranged in dollar value from $25,000 to $2,451,145.

We reviewed the procurement actions to determine whether SDWP performed a cost
analysis to evaluate whether costs were reasonable, allocable, and allowable. We also
determined if SDWP had performed a price analysis by comparing price quotes, market
prices, or other price data.

We found that SDWP did not perform a cost or price analysis on 11 of the 12
procurement actions reviewed. There was no documentation in the procurement files
that SDWP had considered whether costs were reasonable, allocable, or allowable.
Further, there were no indications that any form of price analysis was executed.

For example, in one procurement, SDWP purchased software development services
costing $205,000. This cost included licensing fees, maintenance fees, and associated
labor services. However, SDWP did not document any cost analysis of these elements
of cost as required by OMB Circular A-110. In addition, SDWP did not document any
price analysis showing comparison of price quotes, market prices, or other pricing data.
Therefore, there is a lack of assurance that this cost was reasonable, allowable, and
allocable or that the price reflected best value.

In another example, SDWP procured website development services for $1.7 million.
The cost of the procurement included separate costs for a calendar and event
management system, product registration, and a job matching system. However, again
SDWP did not document any cost analysis or price analysis of these elements of cost
as required by OMB Circular A-110. Therefore, there is a lack of assurance that this
contract cost reflected best value.

We estimated that SDWP did not perform cost or price analyses for 81 percent of the
procurement actions executed in FYs 2003 and 2004. Therefore, we concluded that
SDWP lacked assurances that the costs of products and services procured during the
2-year period were reasonable, allowable, and allocable. In addition, SDWP may not
have received the best value for those services and products.



36                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


Auditee Response

SDWP stated it has already revised its internal procurement guidelines so that better
documentation is maintained through the procurement cycle, and that documentation
clearly demonstrates that the costs of what was procured were “reasonable, allowable,
and allocable,” per OMB Circular A-110 or that the price reflects best value. SDWP
staff will be informed of the new procurement guidelines through in-house training
seminars, to ensure that throughout the organization there is clear and uniform
understanding of the expectations of the procurement process.

OIG Conclusion

We reviewed and determined the revised guidelines were adequate. Consequently, this
recommendation is considered resolved and closed, subject to Grant Officer’s
concurrence.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

 16. Require SDWP to establish procedures to perform and document a cost and
     price analysis for each procurement.

Finding 2d. Equipment records did not contain all information required by OMB
Circular A-110. Additionally, SDWP did not document their physical inventory of
equipment or reconcile results to equipment records.

SDWP did not comply with OMB Circular A-110’s requirement to maintain accurate and
complete records on equipment and to perform an inventory on equipment every 2
years. Specifically, SDWP did not have accurate and complete equipment records and
could not provide any documentation of when a complete physical inventory was taken.
This occurred because SDWP’s policies and procedures did not incorporate OMB
Circular A-110’s requirements. Without adequate information or biennial inventories, it
is possible that equipment could be diverted to non-program purposes without approval
or that equipment could be disposed of without appropriate credit to Federal programs.

According to OMB Circular A-110 Subpart C Section 34 (f) (3), “A physical inventory of
equipment shall be taken and the results reconciled with the equipment records at least
once every 2 years.” Additionally, OMB Circular A-110 Subpart C section 34 (f) (1)
requires that equipment records shall be maintained accurately and shall include
information, such as a description of the equipment, identifying numbers, award
number, location, purchase date, and purchase cost, etc.

We found SDWP had incomplete equipment records. Although SDWP ‘s inventory
system has the capacity to record all the required information as stated in OMB Circular


U.S. Department of Labor—Office of Inspector General                                       37
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


A-110, SDWP did not consistently complete and update the following required
information: source, award number, location, condition and inventory date.

The following table shows the information missing from the inventory list:

                              Missing Inventory Information

            Required   Number of Equipment   Percentage of                   Total
          Information   Missing Information Total Equipment                  Value
        Fund Source               3            13 percent                  $ 20,675
        Award Number             16            70 percent                  $ 391,091
        Location                 10            43 percent                  $ 156,416
        Condition                 3            13 percent                  $ 20,675
        Inventory Date           18            78 percent                  $ 136,450

SDWP stated it had done an inventory as required. However, no documentation was
provided to support their statements. From SDWP’s equipment records, we conducted
a 100 percent physical inventory of their accountable equipment (over $5,000) that was
purchased with DOL funds. We could not locate 5 of 23 equipment items totaling
$44,714. For example, we could not locate two Toshiba copiers costing $7,489 and
$7,709, respectively. The equipment records did not show if they were sold, became
obsolete, or was otherwise disposed of by SDWP. If these copiers were disposed of,
there was no clear record of when they were released, how they were disposed of, or if
funds were received for it. DOL could be due a credit if funds were received for the
copiers. The same is true for the other equipment. These conditions and the
information missing from SDWP records could negatively impact DOL funds.

Auditee Response

SDWP stated it has updated its equipment records to include all the information as
required by OMB Circular A-110 and will perform and document an equipment inventory
every 2 years and reconcile the inventory to equipment records.

OIG Conclusion

SDWP response is adequate and this recommendation is considered resolved and
open. The recommendation will be closed after ETA confirms that the new inventory
system meets the requirements of OMB Circular A-110.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

             17. Require SDWP to update its equipment records to include all the
                 information required by OMB Circular A-110.



38                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


            18. Perform and document an equipment inventory every 2 years and
                reconcile the inventory to equipment records.

Objective 3 – Was SDWP’s reporting of program data adequate?

Most of the WIB activities in San Diego, CA were contracted out and SDWP, as the
administrative agency for the WIB, was responsible for managing and monitoring each
award supported by DOL grants. Therefore, we focused our audit on SDWP’s controls
over and processes for monitoring program performance reporting to determine whether
SDWP had adequate controls in place to ensure program data were accurate. This
program data included participants served, participant eligibility, and levels of service
provided.

We conducted a workpaper review of SDWP’s independent auditing firm to determine
the extent that firm reviewed SDWP’s monitoring of its program data and whether
SDWP’s monitoring and reporting was adequate. We also interviewed SDWP program
personnel to gain an understanding of the controls over program monitoring and
reporting. In addition, we reviewed SDWP’s monitoring program to determine if review
procedures were adequate. Finally, we tested performance reports to determine if
SDWP filed required timely and accurate program reports.

SDWP has a very structured process for monitoring program performance. SDWP
developed an extensive software program which requires contractors to input
performance data within 3 days of the accomplishment, which makes this data
immediately available to SDWP monitors. In addition, SDWP hired an independent
auditing firm to perform agreed-upon procedures on program operations, including
program data.

Based on our review, nothing came to our attention that indicated SDWP’s reported
performance data were not accurate.




Elliot P. Lewis
April 6, 2006




U.S. Department of Labor—Office of Inspector General                                       39
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




Exhibits




U.S. Department of Labor—Office of Inspector General                                       41
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


                                                           EXHIBIT 1
SDWP GRANT EXPENDITURES (JULY 1, 2002 THROUGH JUNE 30, 2004)




Salaries, Wages, and Benefits                                                $ 8,776,889
Temporary Staff                                                                  105,492
Advertising                                                                       10,573
Outreach                                                                         382,047
Contractual Services                                                           3,775,879
Software & Application Development                                             3,220,935
Equipment                                                                      1,921,506
Facilities                                                                     1,810,777
Meeting                                                                          283,761
Office Supplies                                                                  327,820
Professional Fees                                                                172,655
Staff Training and Development                                                    86,844
Travel                                                                           232,009
Job Fairs                                                                         15,592
Allocation - Indirect Costs                                                    8,819,112
Allocation - Career Center                                                     1,664,321
Program expenses - Contractors                                                58,720,960
      Total Expenditures                                                     $90,327,172




U.S. Department of Labor—Office of Inspector General                                       43
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




44                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                            Audit Of San Diego Workforce Partnership, Inc.


                                                                                                      EXHIBIT 2
FY 2005 NET BUILDING EXPENSES
ALLOCABLE TO INDIRECT COST POOL



TOTAL FY 2005 BUILDING RENTAL/LEASE COSTS3                                                      $ 941,782.71
Facilities Maintenance Costs                                              $171,198.34
Utilities                                                                 $ 71,689.20
Total Maintenance and Utilities Costs                                                           $ 242,887.54
NET BUILDING EXPENSES CHARGED TO THE
FY 2005 INDIRECT COST POOL                                                                      $1,184,670.25

RENT CALCULATIONS FOR FY 2005
Rent from Oct. 04 to June 05 (Time of Occupancy)                              9 months
Monthly Rent as per Lease Agreement at
3910 University Ave (New Building)                                        $164,859.57
SDWP's Percentage Portion Based on Occupied Space                                  41%
SDWP's Allocated Portion of Rent Per Month
(41% of Monthly Rent)                                                     $ 67,592.42
Eligible Rent for 9 Months Building Was Occupied
(9 times Monthly Rent Allocation of $67,592.42)                                                  $ 608,331.78

MAINTENANCE & UTLITIES COSTS
CALCULATIONS FOR FY 2005

Total Maintenance and Utilities Costs for FY 2005                        $ 242,887.54

SDWP's Percentage Portion Based on Occupied Space                                  41%
SDWP's Allocated Portion of Rent Per Month
(41% of Total Maintenance & Utilities Costs)                              $ 99,583.89
Eligible Maintenance and Utilities Per Month
($99,583.89 divided by 12 months)                                             8,298.66
Eligible Maintenance and Utilities for 9 months
(9 times Monthly Costs of $8,298.66)                                                                 74,687.92
NET BUILDING EXPENSES ALLOCABLE TO
THE INDIRECT COST POOL                                                                            $683,019.70


QUESTIONED COSTS DIFFERENCE4                                                                     $ 501,650.55




3
  Net rental expense after revenue collected from other commercial tenants such as Charter School, Citibank, and
California Conservation Corps.
4
  See Chart on page 10 and discussion of unused building space on pages 10 and 11 in this report.

U.S. Department of Labor—Office of Inspector General                                                               45
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




46                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




Appendices




U.S. Department of Labor—Office of Inspector General                                       47
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




48                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


                                                                              APPENDIX A
BACKGROUND

The Workforce Investment Act (WIA) established a comprehensive range of workforce
development activities through state and local organizations. Available workforce
development activities provided in local communities can benefit job seekers, laid off
workers, youth, incumbent workers, new entrants to the workforce, veterans, persons
with disabilities, and employers.

The purpose of these activities is to promote an increase in employment, job retention,
earnings, and occupational skills by participants. This, in turn, improves the quality of
the workforce, reduces welfare dependency, and improves the productivity and
competitiveness of the nation. California received approximately $454 million from the
Federal Government in 2004-2005 to provide services for adults, laid-off workers, and
youth.

The San Diego Workforce Partnership (SDWP) acts as the administrative agency for
the San Diego Workforce Investment Board (WIB) and has been administering job
training and employment programs for the region's residents and businesses for more
than 30 years.

SDWP was created under a Joint Powers Agreement by the City and County of San
Diego. The mission of the SDWP is to coordinate a comprehensive workforce
development system that ensures a skilled, productive workforce and supports a
healthy economy throughout the San Diego region. SDWP receives Federal, state and
local funding to provide workforce development activities that: 1) increase individuals'
employment, retention and earnings, as well as skills; and 2) are responsive to
employers' needs and provide for economic development.

The SDWP is a nonprofit organization with about 56 employees and an annual budget
of approximately $46 million. The SDWP serves all of San Diego City and County, and
has six full-service One-Stops operated by a combination of for profit and nonprofit
agencies.




U.S. Department of Labor—Office of Inspector General                                       49
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




50                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


                                                                              APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The primary audit objectives were to answer the following questions:

   (1)    Were SDWP grant costs accurate, allowable, and allocable?

   (2)    Did SDWP comply with applicable laws and regulations?

   (3)    Was SDWP’s reporting of program data adequate?

In addressing the audit objectives, we responded to the ETA Regional Administrator’s
request and answered the following audit questions:

   i.      What, if any, unallowable costs resulted from SDWP’s lease, move, and
           space allocation at 3910 University Avenue, San Diego, CA? (Objective 1)

   ii.     Was the long standing need to replace the out of date provisional indirect cost
           rates used by SDWP resolved? (Objective 1)

   iii.    Did SDWP use and treat various sources of revenue including charter fees,
           donations, and other refunds according to applicable regulations
           (Objective 1)

   iv.     What was the impact of the requirement for One-Stop operators to pay fees
           as a condition of contract award? (Objective 2)

   v.      Was the A-133 audit firm independent? (Objective 2)

Scope

Our performance audit covered SDWP FYs 2003 and 2004 (July 1, 2002 through June
30, 2004). For questioned costs, we expanded our audit scope to earlier and later
periods as identified in our findings. That work was limited to quantifying the dollar
impact of identified problems.

We conducted our audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. A
performance audit includes an understanding of internal controls considered significant
to the audit objectives and testing compliance with significant laws, regulations, and
other compliance requirements. In order to plan our audit, we considered whether
internal controls significant to the audit were properly designed and placed in operation.



U.S. Department of Labor—Office of Inspector General                                       51
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.


Also, we conducted a review of SDWP’s FYs 2003 and 2004 audits to determine the
extent to which we could rely on their work.

We conducted the audit at SDWP offices in San Diego, California, at the independent
auditor’s offices in Irvine, California, and at selected subcontractor offices in the San
Diego area. Fieldwork was conducted from November 26, 2005 to April 6, 2006.

Methodology

We used the President’s Council on Integrity and Efficiency’s Guide to evaluate the
work of the independent auditor. Our review was performed to avoid duplication; to
build upon the work performed by the independent auditor; and to obtain an
understanding of the internal controls used by SDWP to safeguard and manage assets
and to report costs to DOL. We examined and evaluated their work related to the
SDWP financial statements, including the Statement of Federal Grant Costs, and major
compliance issues set forth under OMB Circular A-133.

To supplement the internal control work of the independent auditor, we developed and
applied an internal control questionnaire specifically for our audit. Based on the results
of our internal control analysis, subsequent risk analysis, and specific ETA concerns, we
decided to perform additional financial work on the lease of the new SDWP building,
payroll cost distribution, program income, financial reporting and indirect costs. We also
decided to perform additional compliance testing on procurement and equipment and to
confirm our understanding of internal controls over performance reporting.

To determine if SDWP properly accounted for the building lease, we inspected
accounting records and made onsite observations, including reviewing floor plans.

To determine the amount of program income, we examined accounting records and
procurement documents related to charter fees, cash match fees, and economic summit
revenue. We interviewed SDWP officials as to the collection and application of these
revenues and reviewed WIB and Policy Board minutes for information related to the
revenues. We also interviewed non-awardees to determine whether the requirements
for charter and cash match fees impacted their ability to compete for contract awards.

To determine the salary cost distribution process we interviewed SDWP accounting
personnel and examined selected accounting records. We also interviewed four SDWP
employees regarding the time they spent on various projects.

To determine if indirect cost rates were properly applied and accounted for, we obtained
the indirect cost proposals prepared by SDWP, examined DOL approvals, and
discussed the indirect cost proposal process with the DOL Cost Negotiator. We also
reviewed the independent auditor’s application of indirect cost rates.

We also assessed the financial reporting process and tested the reliability and validity of
the financial status reports SDWP filed with DOL.


52                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


To evaluate the independence of SDWP’s auditing firm, we obtained and reviewed their
service contracts to determine the scope of services provided. We then compared
these determinations to rules established by the American Institute of Certified Public
Accountants to conclude on whether the auditing firm met all independence standards.

To determine if charter and cash match fees presented a barrier to competition in the
award of One-Stop contracts, we reviewed the Request for Proposals for the contracts
and identified the bidding requirements. We then interviewed non-awardees and
successful bidders to obtain feedback on the effect, if any, of requiring these fees as
part of the procurement process.

To test compliance with procurement requirements, we selected a statistical sample of
procurement actions in consultation with the OIG statistician. We randomly selected a
sample of 12 procurement actions out of total 25 total procurement actions to meet our
audit objective. We also reviewed procurement files and conducted interviews with
SDWP management to understand the procurement actions.

Specifically, we reviewed the sampled procurement files and discussed the individual
procurement actions with SDWP officials regarding the use of small businesses,
minority-owned firms and women’s business enterprises and overall compliance with
the procurement requirements of OMB Circular A-110.

To assess equipment management procedures at SDWP, we performed inventory
testing of 100 percent of the equipment over $5000. We made onsite visits to SDWP
offices and subcontractor sites to visually identify equipment existence and use. We
also reviewed SDWP’s inventory and accounting records related to equipment.

Principal Criteria

In addressing the audit objectives, we reviewed relevant Federal laws, regulations, and
guidance. These included the following:

   •   OMB Circular A-110 - Uniform Administrative Requirements for Grants and
       Agreements With Institutions of Higher Education, Hospitals, and Other Non-
       Profit Organizations

   •   OMB Circular A-122 - Cost Principles for Non-Profit Organizations

   •   OMB Circular A-133 - Audits of States, Local Governments, and Non-Profit
       Organizations

   •   The Workforce Investment Act (WIA) of 1998

   •   Applicable SDWP grant agreements




U.S. Department of Labor—Office of Inspector General                                       53
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




54                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


                                                                              APPENDIX C
ACRONYMS AND ABBREVIATIONS

CFR       Code of Federal Regulations

DOL       Department of Labor

EDD       California Economic Development Department

ETA       Employment and Training Administration

FY        Fiscal Year

OMB       Office of Management and Budget

OIG       Office of Inspector General

RFP       Request for Proposal

SDWP      San Diego Workforce Partnership, Inc.

WIA       Workforce Investment Act

WIB       Workforce Investment Board

SDCCD San Diego Community College District




U.S. Department of Labor—Office of Inspector General                                       55
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




56                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.


                                                                              APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                       57
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




58                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       59
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




60                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       61
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




62                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       63
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




64                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       65
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




66                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       67
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




68                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       69
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




70                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       71
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




72                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       73
Report Number: 09-07-001-03-390
Audit of San Diego Workforce Partnership, Inc.




74                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 09-07-001-03-390
                                                Audit Of San Diego Workforce Partnership, Inc.




U.S. Department of Labor—Office of Inspector General                                       75
Report Number: 09-07-001-03-390
